Office of Inspector General
  for the Millennium Challenge Corporation



June 03, 2012

Mr. Patrick Fine
Vice President of Compact Operations
Millennium Challenge Corporation
875 15th Street, NW
Washington, DC 20005

Subject: Review of MCC-Funded Project Activities in Benin
         (Report No. M-000-12-005-S)

Dear Mr. Fine:

This letter transmits the Office of Inspector General’s final report on “Review of
MCC-Funded Project Activities in Benin.” In finalizing the report, we considered the Millennium
Challenge Corporation (MCC)’s written comments on our draft report.

The report contains three recommendations to address (1) the sustainability of MCC’s
investment in the port of Cotonou and (2) the deobligation of unused compact funding. MCC
agreed with all three of our recommendations. We consider that management decisions have
been reached on all three recommendations. Final action will take place on Recommendations
1, 2, and 3 when MCC provides our office with a copy of its communication to the Government
of Benin and all compact funding is fully deobligated.

We appreciate the cooperation and courtesy extended to our staff during this review.


                                      Sincerely,

                                             /s/

                                      Richard J. Taylor
                                      Deputy Assistant Inspector General for Audit
                                      Millennium Challenge Corporation
cc:   John Mantini, MCC, Assistant General Counsel
      mantinijc@mcc.gov

      Arlene McDonald, MCC, Compliance Officer
      mcdonalda@mcc.gov

      Lee Roussell, MCC, Resident Country Director for Benin
      roussell@mcc.gov

      Gloria Peterson, MCC, Deputy Resident Country Director for Benin
      petersongl@mcc.gov

      Kevin Mitchell, MCC, Director, Fiscal Accountability
      mitchellkd@mcc.gov
SUMMARY
On February 22, 2006, the Millennium Challenge Corporation (MCC) signed a 5-year,
$307 million compact with the Government of Benin. The compact’s goals were to improve core
physical and institutional infrastructure and to increase private sector activity and investment.
The 5-year implementation period for the compact went from October 6, 2006, to October 6,
2011. However, since MCC gave Millennium Challenge Account (MCA)-Benin another 120
days to close out all the activities, the final date for MCA-Benin’s closure was February 3, 2012.

The figure below illustrates the funding amounts for the various project activities under the
Benin compact, as modified during implementation. Most funds were allocated to a project that
involved rehabilitating and expanding the port of Cotonou (the Access to Markets Project, which
also included related designs and reform efforts). This project consumed $189 million
(62 percent) of the total $307 million.

                         Composition of MCC’s Compact With Benin
                                   $17 million
                                             $20 million               Access to Financial Services

                                                   $32 million         Access to Justice


                                                                       Access to Land


                                                      $49 million      Program Administration and
        $189 million
                                                                       Monitoring and Evaluation
                                                                       Access to Markets




Operational since 1965, the port of Cotonou is a transit point for the neighboring land-locked
countries of Burkina Faso, Chad, and Niger. It is also a port relay for Nigeria. Thus, the port’s
sustainability and security are important and have regional significance for commerce and
development in West Africa.

Our review focused on the sustainability of MCC’s investments in the port of Cotonou under the
Access to Markets Project. In addition, the review covered residual MCC funding that could be
deobligated and reprogrammed. We had two objectives: (1) determining whether there were
any significant issues or problems that could prevent the sustainability of the MCC-funded
improvements and expansion of the port, and (2) determining the amount of any outstanding
and unused compact funds, as well as the status of and plan for collecting and returning those
funds.

Regarding the first, the review found several issues that are critical to the port’s long-term
sustainability.




                                                  1
      The port of Cotonou lacked management continuity. There have been five general
      managers in the past 5 years. This turnover problem was first reported in a prior Office of
      Inspector General (OIG)/MCC audit report1 (M-000-10-001-P) on MCA-Benin issued
      March 31, 2010, and it continues. The most recent general manager had been in the
      position for about 3 months at the time of our review. We believe this constant turnover in
      management has hindered the creation of a port security management plan.

      The port of Cotonou’s security needs improvement. The port’s harbor master estimated
      that he currently has about 90 security personnel, far fewer than the 150 employees he
      thinks are necessary. While there are different estimates regarding the number of security
      personnel needed, all agree that the current number is insufficient and that significant
      training would be needed.

Regarding the unused compact funding, MCC will need to deobligate an estimated $5.4 million.
This amount is an estimate because the final independent financial audit of MCA-Benin had not
been completed.

This report recommends that MCC:

1. Prepare a letter to the Government of Benin expressing MCC’s concerns regarding
   management continuity at the port of Cotonou (page 3).

2. Ensure that the port of Cotonou completes a formal port security management plan that
   addresses the need to fund security adequately (page 4).

3. Ensure that the estimated $5.4 million in unused Benin compact funding is deobligated
   (page 5).

Detailed results of this review appear in the following section. The scope and methodology are
included in Appendix I. The full text of management comments is in Appendix II, and OIG’s
evaluation of those comments can be found on page 6.




1
    “Audit of the Millennium Challenge Corporation’s Access to Markets Project in Benin.”

                                                      2
REVIEW RESULTS
Port of Cotonou Lacked
Management Continuity
There have been five general managers (GMs) at the port of Cotonou since the compact
entered into force in October 2006. This continual turnover has hindered port operations. The
Benin compact summary states, “Sustainability will be ensured through training, capacity
building, policy reforms, and institutional changes.” The consulting firm Inros Lackner AG,
contracted by MCA-Benin to serve as port adviser, also made the following recommendation:2

       The No. 1 Recommendation in our Final report, which is the most important
       recommendation of this work, is that the Appointment of the GM of the
       Autonomous Port of Cotonou be made in the future according to his managerial
       qualities and professional capacity, based on a renewable contract of 5 years
       and provided with a guideline document stating the objectives to achieve. We
       are convinced that it is the only way to make the Port of Cotonou prosperous for
       long-term, stabilize its position in the Sub-region and increase its Authority to
       allow it to play its role in the national economy.

Although management continuity was discussed also in a 2010 OIG/MCC audit report, the
turnover problem still had not been addressed at the time of our review. In fact, the GM we met
during our review had been in the job for about 3 months, and so had the port’s harbormaster,
who is responsible for security.

It was difficult for MCA-Benin to address the problems with management turnover because the
port GM is a political appointee to the Port Authority of Cotonou (PAC)—and therefore he or she
serves at the pleasure of the President of Benin. The lack of stable leadership will continue to
hurt the planning, effectiveness, efficiency, and sustainability of port activities. Constant
turnover in management makes it difficult for PAC to consistently and adequately plan
development and training activities. Long-term strategies and plans can be implemented
sufficiently and resources used most effectively only with consistent management.

Benin is eligible to develop a proposal for a second compact. Should it do so, we believe that
an evaluation of the proposal should take into account the Government of Benin’s commitment
to the sustainability of MCC-funded project activities. We believe that a letter should be
forwarded by the U.S. Ambassador in Benin to the President of Benin. Ideally, political
influences on the port GM appointments would be minimized, and a qualified GM should be in
place for at least 3 years to implement policies and long-term plans. The Ambassador agreed
with the auditors and stated his willingness to forward a letter, if prepared by MCC.

    Recommendation 1. We recommend that the Millennium Challenge Corporation Vice
    President, Compact Operations, prepare a letter to the Government of Benin expressing
    MCC’s concerns regarding management continuity at the port of Cotonou.



2
 Final Report of the Port Advisor of MCA-Benin to the General Manager of the Autonomous Port of
Cotonou.

                                                  3
Port Security Needs
Improvement
The rehabilitation and expansion of the port of Cotonou under the compact included upgrading
the security system and security operations. However, the port did not have enough trained
security employees to secure its operations. MCA-Benin’s project management consultants
(PMC) calculated that the port needed 257 security employees who work in three 8-hour shifts
over a 24-hour period. However, the harbormaster—who is responsible for overall port
security—estimated that about 150 people would be enough. He said he had about 90, far fewer
than he thinks are necessary to keep the port secure.

The difference between the PMC’s and the harbormaster’s estimates represents a difference in
opinion. We believe that the PMC’s estimate for 257 incorporates the optimum level of
personnel, taking all conditions into account, and may be more objective. However, all agree
that the current number of 90 is insufficient and that employees will need significant training.
The harbormaster said he doesn’t have adequate funding to secure the port. Furthermore, he
said he did not know how much funding the government would allot for security in the future.
We believe that this shortage of security personnel also could result from the lack of
management continuity at the port.

The problems stemming from the shortage of employees became apparent when a contractor
installed an integrated electronic security system. In this case, the contractor, United Telecoms
Limited (UTL), did not train as many staff members as planned because PAC did not provide
enough employees to learn how to use the computerized security system. The PMC team
leader and his deputy expressed concern about the adequacy of personnel provided to be
trained on the system as well as concern about the port’s overall security. In a letter to the PMC
dated July 1, 2011, UTL said the number of available security staff members was inadequate;
“The list that PAC provided to us listed approximately 40 people who could be deemed as
operational security personnel . . . This is insufficient for a port with six vehicular access points,
a variety of zones, and a round-the-clock operation.”

The letter included an estimate, as an attachment, that about 257 people would be needed to
secure the port adequately, including the operation of the electronic security system. Although
we could not verify exactly how many security employees work at the port, all evidence
indicates that it needs more. Consequently, the MCC-funded integrated electronic security
system and other related infrastructure may not be utilized and maintained to their full potential.

Since the port may not be able to maintain a sufficient number of employees because of a lack
of planning and resources, it could be more vulnerable to theft and vandalism. Adequate
security is important also to minimize health and safety risks. Some yellowcake (partially
concentrated uranium ore) is shipped through the port of Cotonou each year. While yellowcake
itself does not pose a high-level security risk, it could pose a health and safety risk.

   Recommendation 2. We recommend that the Millennium Challenge Corporation Vice
   President, Compact Operations, ensure that the port of Cotonou complete a formal port
   security management plan that addresses the need to fund port security adequately.




                                                  4
MCA-Benin Compact Will Have
Unused Funding of $5.4 Million
That Needs Deobligating
On February 21, 2012, MCC estimated that $5.4 million will remain unused from the initial
$307 million obligated under the compact; this was an estimate because at the time of our
review the final independent financial audit of MCA-Benin had not been completed. According
to MCC and the program closure plan, any funds not disbursed after the expiration of the
compact and the 120-day closure period will be deobligated by MCC. Separately, subsequent
to our fieldwork, MCC notified us that all MCA-Benin bank accounts had been closed and that
all MCC funding in such accounts (approximately $80,000) had been transferred to MCC.

Obligated funds that are not used for compact activities after the expiration of the compact and
the 120-day closure period should be appropriately deobligated so that they may be released
from compact commitment and used for other purposes by MCC. Therefore, the unused
compact funds from completed activities should be deobligated as soon as possible and in
accordance with MCC’s Compact Financial Management Policy and Procedure Manual. OIG
recommends that MCC identify the exact amount of funds remaining after compact expiration
and deobligate this funding.

   Recommendation 3. We recommend that the Millennium Challenge Corporation Vice
   President, Compact Operations, and the Vice President, Administration and Finance,
   ensure that the estimated $5.4 million in unused Benin compact funding is deobligated.

Follow-Up on Prior OIG/MCC
Audit Recommendations
The previous OIG/MCC audit report on MCA-Benin mentioned a signed contract that included
$1.9 million worth of prohibited goods. Specifically, the contract included the purchase of patrol
boats with machine guns, which were not allowed according to the terms of the Benin compact.
OIG recommended that MCC modify the contract to exclude the purchase.

In accordance with generally accepted government auditing standards, we followed up on this
recommendation during our review. After studying the amended contract, we determined that a
management decision was reached and that MCA-Benin took the appropriate final action to
rectify this situation. As a result, the $1.9 million could be better used to advance the compact’s
goals.




                                                5
EVALUATION OF
MANAGEMENT COMMENTS
On April 18, 2012, MCC provided a formal response to our draft report (included in Appendix II).
In its comments, MCC agreed with all three of our recommendations.

MCC agreed with Recommendation 1, to prepare a letter to the Government of Benin
expressing MCC’s concerns regarding management continuity at the port of Cotonou.
Throughout the compact period, MCC has communicated its concerns regarding management
continuity to the government. MCC agreed to do so once again by the end of June 2012. OIG
considers that a management decision has been reached. However, final action cannot take
place until MCC provides our office with a copy of its communication to the Government of
Benin.

MCC agreed with Recommendation 2, to ensure that the Port of Cotonou completes a formal
port security management plan that addresses the need to adequately fund port security.
Previously MCC communicated its concerns to the government about security and the fact that
the port has not implemented a comprehensive security management plan. MCC will ask the
Government of Benin to pursue this recommendation with the port by the end of June 2012 and
will continue to monitor the adequacy of port security as part of the second compact
development process. OIG considers that a management decision has been reached.
However, final action cannot take place until MCC provides our office with a copy of its
communication to the Government of Benin.

MCC agreed with Recommendation 3, to ensure that $5.4 million in unused compact funding is
deobligated. MCC will ensure that the funds are deobligated in a timely fashion in accordance
with applicable MCC internal procedures. For Recommendation 3, OIG considers that a
management decision has been reached. However, final action cannot take place until the
unused compact funding is fully deobligated.




                                               6
                                                                                     APPENDIX I



SCOPE AND METHODOLOGY
Scope
OIG conducted this review of MCA-Benin to determine whether there were any significant
issues that could prevent adequate sustainability of the improvements and expansion of the port
of Cotonou. We also conducted the review to determine the amount of any outstanding and
unused compact funds. We primarily focused on the sustainability of the MCC-funded
improvements at the port rather than on its overall operating sustainability. The improvements
included the construction of a new wharf and a wall to reduce sedimentation, road construction
and rehabilitation, and the installation of an integrated electronic security system.

Although this review was not an audit, we conducted the review in accordance with Government
Auditing Standards, specifically Chapters 3 and 7, Sections 7.55 and 7.72 to 7.79. We planned
and performed this review to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions in accordance with our review objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions.

We conducted the fieldwork from October 16 to November 2, 2011, in Cotonou and at MCC’s
headquarters in Washington, D.C. OIG selected Benin because its compact ended on
October 6, 2011, and the timing of closeout facilitated our review objectives.

Methodology
The review team met with MCC staff members in Washington, D.C., as well as with MCA-Benin
and MCC staff members in Benin. We also conducted multiple site visits to the port of
Cotonou.

To answer the objectives, the team:

   Interviewed pertinent MCA-Benin personnel responsible for overseeing the port of
   Cotonou’s infrastructure projects and other compact activities.

   Interviewed personnel from PMC.

   Interviewed the port’s GM and harbormaster.

   Interviewed personnel responsible for installing the integrated security system at the port.

   Analyzed pertinent financial reports and related documents and interviewed responsible
   financial personnel.




                                                7
                                                                                 APPENDIX II



MANAGEMENT COMMENTS




Date:         April 18, 2012

To:           Mr. Mark S. Norman, Acting Deputy Assistant Inspector General for Audit
              Millennium Challenge Corporation

From:         Mr. Patrick Fine, Vice President /s/
              Department of Compact Operations
              Millennium Challenge Corporation

Subject:      Review of MCC-Funded Project Activities in Benin
              (Report No. M-000-12-00X-S)

The Millennium Challenge Corporation (MCC) appreciates the opportunity to respond to the
Office of Inspector General’s (OIG) report entitled “Review of MCC-Funded Project Activities
in Benin”. MCC’s specific responses to the three recommendations in the report are detailed
below. In addition to providing a response to the audit recommendations, this serves as MCC’s
management decision.

Recommendation No. 1. We recommend that the Millennium Challenge Corporation Vice
President of Compact Operations prepare a letter to the Government of Benin expressing
MCC's concerns regarding management continuity at the Port of Cotonou.

MCC Response: MCC agrees with the recommendation. MCC has been concerned about the
continuity of management at the Port of Cotonou throughout the implementation of the Compact,
a concern that MCC has communicated to the Government of Benin through written and oral
meetings during the Compact period. MCC agrees to once again communicate the importance of
management continuity to the Government of Benin and the Port of Cotonou by the end of June
2012.

Recommendation No. 2. We recommend that the Millennium Challenge Corporation Vice
President of Compact Operations ensure that the Port of Cotonou completes a formal port
security management plan that addresses the need to adequately fund Port security.

                                               8
                                                                                     APPENDIX II



MCC Response: MCC agrees with the recommendation. MCC has previously communicated
to the Government of Benin its concerns about Port security and the fact that a comprehensive
port security management plan has not been developed and implemented (including adequate
funding) by the Port of Cotonou. MCC will, by the end of June 2012, again request that the
Government of Benin pursue this recommendation and will continue to monitor the adequacy of
Port security as part of the second Compact development process.

Recommendation No. 3. We recommend that the Millennium Challenge Corporation Vice
President of Compact Operations and the Vice President of Administration & Finance
ensure that the estimated $5.4 million in unused Benin compact funding is de-obligated.

MCC Response: MCC agrees with the recommendation. MCC will ensure that these funds are
de-obligated in a timely fashion in accordance with applicable MCC internal procedures.
Subject to finalization of the final quarterly financial report and completion and approval of the
final audit report, the precise amount of unexpended funding will be determined and will be de-
obligated by MCC’s Department of Administration and Finance.


The actions specified above constitute Management Decision for all three of the above
recommendations. If you have any questions, please contact Pat McDonald, MCC Compliance
Officer, at 202-521-7260.




                                                9
